U.S. Department of Labor       Inspector General
                               Washington. D.C 20210
JAN. 16, 1998

MEMORANDUM FOR:        J. DAVITT McATEER
                       Assistant Secretary for Mine Safety and
                       Health

FROM:                      CHARLES C. MASTEN
                           Inspector General

SUBJECT:                   Review of Selected Procurement Issues Mine
                           Safety and Health Administration
                           Report No. 12-OEI-98-MSHA

This memorandum presents the results of a review by the Office
of Inspector General (OIG), Office of Evaluations and
Inspections, of selected procurement actions of the Mine Safety
and Health Administration (MSHA). The review, initiated in
response to a congressional referral, did not confirm the
allegations that MSHA intentionally circumvented building
construction thresholds requiring congressional approval or
engaged in widespread fragmentation of procurements. We
concluded that the concerns raised in these areas were based
upon information which was generally inaccurate or not currently
valid. Since no issues requiring corrective action were
identified during this review, this memorandum report is
provided for information purposes and does not require a
response.

I.      Background

The Assistant Secretary for Mine Safety and Health requested
that the OIG review the concerns raised in correspondence, dated
August 2, 1996, from Congressman Daniel Schaefer. This report
presents the results of the fourth in a series of reviews
addressing the issues forwarded by the Congressman. Our review
included interviews with selected MSHA personnel and analysis of
procurement files, logs, contracts, and related documentation at
MSHA’s Beckley, WV;. Denver, CO and Arlington, VA procurement
divisions. Our review was conducted in accordance with the
Quality Standards for Inspections published by the President’s
Council on Integrity and Efficiency.

II.   Review Results

A.      Building Construction
Our objectives in evaluating the issues surrounding building
construction projects previously initiated by MSHA in Bruceton,
PA and currently underway in Trideiphia and Beckley, WV, were to
determine whether these procurement actions complied with
existing Federal budget and procurement laws, regulations and
guidance. The concerns that MSHA had not obtained required
congressional authorizations for the projects, raised in the
correspondence forwarded to us, were based upon inaccurate or
incomplete information. No indications of other procurement
compliance issues pertaining to the construction projects came
to our attention during this review.

Our review of MSHA’s procurement records regarding construction
at the Bruceton Safety and Health Technology Center for the past
ten years did not confirm the congressional constituent’s
contention that new building construction in the early 1990’s
was incremented into three contracts totaling approximately $1.2
million. Analysis of the documentation from MSHA’s official
contract files and logs, disclosed that a contract for $409,000
was awarded in September 1987 to construct a building (#38) to
house MSHA employees at the Bureau of Mines complex. Further
analysis, as well as interviews with MSHA officials, did not
support the complainant’s position that when the building was
expanded (roughly doubling the floor space) in 1992, at least
three additional contracts, each under $500,000, were awarded to
complete construction. Our review determined that two contracts
totaling $547,200 were let in July 1993 to construct an addition
to Building #38.

While the correspondence states that each contract was let for
less than $500,000 to stay below the congressionally mandated
limit of one-half million dollars and avoid requiring
congressional approval, in fact, our review confirmed that the
threshold the General Services Administration (GSA) administers
had been raised from $500,000 to $1.5 million in 1988. Under the
US Code, Title 40, Public Buildings, Property, and Works;
Chapter 12, Construction, Alteration, and Acquisition of Public
Buildings, congressional approval is required for such proposed
projects that involve a total expenditure in excess of $1.5
million.

Our review did confirm the constituent’s information that
Commerce Business Daily (CBD) notices would appear in the very
near future soliciting bids for construction projects at MSHA’s
Beckley and Tridelphia, WV sites. However, the complainant’s
position that these additional incremented construction
contracts are expected to be in violation of the $500,000 new
facility funding limit, was not substantiated. Analysis of the
official contract files and logs identified five notices in the
CBD for construction contracts involving those two sites. One of
the five projects applied to the Beckley facilities and entailed
furnishing and installing chiller towers on a building; a
contract for $308,453 was let on September 27, 1996 for this
purpose. The remaining four CED notices and subsequent contracts
awarded on September 30, 1996 pertained to Tridelphia projects
and involved the following:

     1.   construction of a new maintenance building on the MSHA
          property ($186,195)
     2.   repair/maintenance to Building I - install paving and
          french drains ($294,900)
     3.   repair/maintenance to Building II - repair and/or
          install replacement metal siding, roof system and
          windows ($375,000)
     4.   construct a new second floor to Building II -
          including an elevator, all interior office
          partitioning, ceilings, doors, electric, HVAC,
          lighting, etc. ($446,000)

The four Tridelphia contracts were awarded for distinct
construction projects which neither individually, nor in the
aggregate, exceed GSA’s $1.5 million dollar threshold cited
above. Further, these four contracts were placed on hold pending
GAO and OIG review of concerns raised in the correspondence
forwarded by Congressman Schaefer. MSHA received congressional
approval to proceed with the first three Trideiphia contracts in
December 1996 and the fourth in February 1997.

B.   Fragmentation of Procurements

Our objectives in evaluating the concerns raised about
widespread fragmentation of procurement actions in some segments
of the Agency, were to examine MSHA’s procurement procedures for
compliance with applicable laws and regulations prohibiting
incremental procurement actions. As a result of our review, we
concluded that there was no evidence of systemic fragmentation
of procurement actions.

Fragmentation or incremental procurement actions refers to the
practice of breaking a procurement into several purchases that
are less than the regulatory threshold merely to permit use of
simplified acquisition procedures or to avoid any other
procurement requirements. The Federal Acquisition Streamlining
Act of 1994 defines the Simplified Acquisition Threshold (SAT)as
$100,000 ($50,000 without interim certification for the Federal
Acquisition Computer Network, the preferred means for conducting
all purchases under the SAT). Regulations further provide that
simplified acquisition procedures shall not be used in the
acquisition of supplies and services initially estimated to
exceed the SAT, even though resulting awards do not exceed the
threshold. Prior to 1994, the threshold for procurements defined
as small purchases permitting a simplified process was $25,000.

We interviewed MSHA procurement officials, examined information
from the agency’s Procurement Information Tracking System (PITS)
and reviewed procurement logs and files, as well as Federal
Acquisition Regulations. In addition, we reviewed procurement
transaction data from the Department of Labor Accounting and
Related Systems (DOLAR$) for a six-month period in 1996.
Transactions that on the surface gave the appearance of
potential fragmentation were identified and a further analysis
of those specific contract files was conducted. This review did
not confirm the complainant’s contention; in fact, of the
procurement actions examined, no fragmentation was identified.

Consistent with MSHA’s Delegated Procurement Authority for both
purchase orders and contracts, the agency is subject to periodic
contract management reviews by the Office of the Assistant
Secretary for Administration and Management (OASAN), including
an examination of policies, practices and procedures for
compliance with FAR and DOL guidelines. OASAM conducted reviews
in June 1993 and March 1995, encompassing both MSHA’s large
contracts and small purchases nationwide. While fragmentation
was identified along with a variety of other deficiencies in
1993, OASAM officials stated that their 1995 follow-up review
found all previously cited findings had been corrected. In
addition, the OASAM reviewers indicated that contract
documentation revealed substantial improvements had been made in
MSHA’s procurement procedures.

In summary, our review determined that the concerns raised in
the correspondence forwarded by Congressman Schaefer regarding
the circumvention of building construction thresholds and
widespread fragmentation of procurements were without
foundation. Since no issues requiring corrective action were
identified during this review, this memorandum report is
considered closed upon issuance and no response is required.

We appreciate the cooperation received from MSHA officials
during the course of this review. If you have any questions
concerning this report, please contact Veronica M. Campbell at
(202) 219-8446, ext. 143.
